         LIMITED REVIEW OF
ALLIANT AND ALLIANT SMALL BUSINESS
 REPORT NUMBER A080152/Q/A/P08008

         September 22, 2008
unsuccessful offerors under Alliant sought review of the award process. The U.S. Court of
Federal Claims (Court) concluded on March 3, 2008 that the GSA failed to take adequate steps
to ensure that the past performance information it received was relevant to the evaluation
factors and also failed to ensure that the information obtained was accurate. This is one factor
that led the Court to require FAS to reevaluate all of the Alliant proposals. Four contractors also
protested the Alliant Small Business awards, but those protests were dropped given that GSA
also decided to reevaluate those proposals. Given the Court’s conclusion and the reevaluation
of the Alliant and Alliant Small Business awards, we initiated a limited review of the Past
Performance Support task order.

Objectives, Scope and Methodology
The objectives of this review were (1) to determine to what extent FAS followed applicable laws,
regulations, and guidance when awarding and administering the Past Performance Support task
order and (2) to determine how FAS ensured that the contractor had no conflict of interest. We
did not specifically evaluate the quality of the contractor’s work during this review.

To accomplish the audit objectives, we reviewed applicable Federal Acquisition Regulations
(FAR), the GSA Acquisition Manual (GSAM) and GSA Orders; obtained and reviewed the task
order file for Alliant and Alliant Small Business Past Performance Support task order for
compliance with applicable policies and procedures; obtained and reviewed status reports and
invoices; reviewed contractor deliverables to ensure that they were received in accordance with
the Statement of Work (SOW); and interviewed the Contracting Officer (CO) and Contracting
Officer Technical Representative (COTR) for the task order.

We conducted this review between April 2008 and June 2008, in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

Results of Review
Our limited review of the Alliant and Alliant Small Business Past Performance Support task
order identified that FAS did not always adhere to relevant policies and procedures during the
key phases of planning, award, and administration. As a result, there is no evidence of proper
acquisition planning; there is limited assurance that the government paid a fair and reasonable
price for the work; and the government paid for work it had no evidence the contractor
performed, which is one factor that led the Court to require FAS to reevaluate all of the Alliant
proposals, a costly and time-consuming outcome that highlights the importance of proper
contract oversight. The problems with planning and award occurred due to the CO’s lack of
application of the correct FAR criteria, and the problem with contract administration occurred
primarily due to the COTR’s infrequent delegation of contract administration responsibilities and
lack of recent training related to these responsibilities. Additionally, we determined that FAS
required Calyptus to self-certify that no conflict of interest existed between Calyptus and the
contractors bidding on the Alliant or Alliant Small Business GWACs.

Acquisition Planning
We determined that FAS did not prepare an acquisition plan for the Past Performance Support
task order. Acquisition planning is intended to ensure that agency needs are fulfilled in the most
effective, economical, and timely manner. Acquisition planning ensures that agencies consider



                                                 2
procurement alternatives before acquiring goods and/or services, and also ensures that
agencies provide for full and open competition. Through acquisition planning, the requiring
activity should identify specific requirements and outline a preliminary statement of need.
Additionally, the activity should establish realistic delivery and performance schedules and
identify management responsibilities for overseeing contract performance.

For acquisitions exceeding the Simplified Acquisition Threshold (SAT), which is $100,000, GSA
Order OGP 2800.1 requires at least a Limited Acquisition Plan. The Past Performance Support
task order award amount was $242,400; accordingly, FAS was not in compliance with the FAR
relative to acquisition planning. In addition, the CO stated that she did not believe that an
acquisition plan was required for orders placed under Federal Supply Schedule contracts in
accordance with FAR Part 8.4--Federal Supply Schedules. However, FAR 8.404(c) specifically
states that orders placed under a Federal Supply Schedule contract are not exempt from the
development of acquisition plans.

Given that there is no evidence of sufficient acquisition planning, there is limited assurance that
the government’s needs were met in the most effective, economical, and timely manner.

Price Analysis and Award Determination
We determined that there was no evidence of a tradeoff analysis or an evaluation of level of
effort and labor mix in the contract file documentation. Both the tradeoff analysis and evaluation
of level of effort and labor mix assist in ensuring the government is receiving a fair and
reasonable price.

Three contractors submitted proposals in response to the solicitation FAS issued for the Past
Performance Support task order. FAS awarded the task order to Calyptus, which submitted the
highest priced proposal. While the SOW indicated that technical evaluation factors were more
important than price, and the government’s technical evaluation rated Calyptus’ proposal
highest, there is no evidence that the CO performed the required tradeoff analysis in making a
best value determination. FAR 15.101-1 permits tradeoffs among cost or price and non-cost
factors to allow the government to accept other than the lowest priced proposal. FAR 15.101-
1(c) also requires that:
       The perceived benefits of the higher priced proposal shall merit the additional cost,
       and the rationale for tradeoffs must be documented in the file in accordance with
       15.406.
When requesting the documentation for the tradeoff analysis from the CO, she referred us back
to the technical evaluation, which does not include a cost analysis or a tradeoff analysis meriting
the additional cost. Considering that Calyptus' price was 36 percent higher than the next
proposal, and the documentation does not indicate that the required analysis was performed,
there is concern whether the government needed to pay a premium for this work.

In addition, the FAR has specific requirements for the determination of price reasonableness for
orders for services placed against Federal Supply Schedule contracts where a SOW is required
(FAR Part 8.405-2); specifically, the FAR requires an analysis of the level of effort and labor mix
to arrive at the conclusion that the total price is fair and reasonable. The contract file
documentation does not reflect that this analysis was performed. The award determination
indicated that the CO considered prices to be fair and reasonable because the labor rates
proposed were at or below Calyptus’ MOBIS rates. However, in determining price
reasonableness for services, the labor rates are only one part of the equation. An analysis of



                                                 3
the number of hours and mix of labor disciplines the contractor is proposing is also necessary
to ensure that the total price is fair and reasonable. While there was an Independent
Government Cost Estimate (IGCE), it was of limited value because (1) the IGCE lacks sufficient
detail, and (2) there is no indication of an analysis of substantial variations between the ICGE
and the accepted proposal; specifically:

   •   The IGCE included eight Survey Analysts and referenced the GSA e-Library, GSA
       MOBIS Schedule 874-3. However, there are 658 contractors on this particular schedule;
       accordingly, there is no information to explain how the estimator selected the category
       and associated rate. Calyptus proposed a labor rate that was 22 percent higher than the
       IGCE rate for a comparable position. There were 1,584 labor hours associated with this
       higher rate, which represented approximately a $35,000 difference.
   •   The accepted proposal included an $84,000 allowance for a project manager and
       assistant project manager, but the ICGE made no allowance for any type of project
       management. This represents a significant difference in labor mix.
   •   The accepted proposal included a total of 2,224 hours of labor, while the IGCE indicated
       a total of 3,840 hours would be needed. This represents a 42 percent difference in the
       level of effort.

Generally, when competition is present, there is increased assurance that pricing will be fair and
reasonable. However, given the disparity in the proposals for this task order and the absence of
an analysis of level of effort and labor mix in conjunction with the IGCE and as required by the
FAR, there was insufficient documentation to support that the government received a fair and
reasonable price for this task order.

Contract Administration
We determined that FAS did not comply with proper contract administration procedures relative
to the inspection and acceptance of contract deliverables; as a result, there was no assurance
that the government received the services for which it paid.

The contractor was responsible for three main tasks outlined in the SOW:
    (1) Conduct approximately 600 interviews for Alliant and 1,500 for Alliant Small Business,
    (2) Transcribe those interviews, and
    (3) Validate the interviewee’s responses.

Deliverables to be received by the government included all interview reports and a file showing
the interviewee’s validation. FAS received all of the interview reports; however, the COTR
authorized final payment to the contractor without receiving the validation documentation.
Accordingly, there was no assurance that contractor performed the work for which the
government paid.

We did not find a COTR delegation letter in the file as required by FAR 4.802. A COTR letter
provides for a clear description of key roles and responsibilities. Specifically, a standard COTR
letter instructs that the COTR should not certify payment on an invoice until they are able to
verify contractor performance by receipt of applicable deliverables, examination of contractor’s
periodic progress reports, reconciliation of hours invoiced with contractor’s timecards, and/or
personal knowledge of the contractor’s activities in support of the contract. Although the
contractor’s periodic progress reports indicated that validation of the interviews was occurring,
without receiving the final deliverable, the COTR had no other reasonable basis to determine
that the contractor completed the validation in accordance with the SOW. Therefore, the COTR


                                                4
improperly authorized payments for deliverables that the government did not receive.
Consequently, GSA relied upon the past performance information obtained by the contractor
when evaluating Alliant and Alliant Small Business proposals for awards and awarded those
contracts without ensuring that the information was valid and accurate. This error is one factor
that led the Court to require FAS to reevaluate all of the Alliant proposals, a costly and time-
consuming process. Four contractors also protested the Alliant Small Business awards, but
those protests were dropped given that GSA also decided to reevaluate those proposals. Not
only do these reevaluations require additional resources that could be used for other GSA
operations, but the situation could also impact the level of public confidence in GSA’s ability to
manage large procurement programs, which is a key element of the agency’s mission.

We determined that the following factors contributed to the COTR error:
      • COTR duties were not part of the individual’s regular job responsibilities.
      • The COTR for this task order last attended refresher COTR training in June 2004.

In discussions with ITS management, they recognize the importance of ensuring that individuals
assigned as COTRs perform COTR functions as their primary job responsibility as a mitigating
factor to the risk of improper contract administration. ITS officials advised us that in February
2008 they shifted all internal ITS contract administration activities to a full-time Contracting
Officer’s Representative (COR) in response to the improper authorization of payments for the
Calyptus task order. ITS also plans on implementing a Contract Review Board to oversee pre
and post award contracting activities. We believe that once implemented, this step will
contribute to an improved control environment.

Training records indicated that the most recent refresher training the COTR assigned this task
order attended was eight hours in June 2004. The Calyptus task order was awarded in January
2007. By memorandum dated November 26, 2007, OMB established a structured training
program for COTRs applicable to all executive agencies. All COTRs appointed after November
26, 2007 are required to attain certification no later than six months from their date of
appointment and must maintain their skills through continuous learning. The memorandum
outlines both the certification and ongoing training requirements, which must cover essential
COTR competencies. By implementing the OMB policy and requiring COTRs to attend more
frequent training on contract administration roles and responsibilities, the ITS organization can
help ensure that proper contract administration occurs.

Conflict of Interest
In accordance with FAS requirements, Calyptus self-certified that no conflict of interest existed
between Calyptus and the contractors bidding on the Alliant or Alliant Small Business GWACs.
Further, before sending out the Request for Quotation (RFQ) to the vendors, the CO for the
Past Performance Support task order contacted the Alliant CO to ensure that the contractors
solicited for the task order were not bidders on Alliant or Alliant Small Business.

FAS included two Organizational Conflict of Interest clauses in the SOW. These clauses state
that, “The Contractor warrants that, to the best of its knowledge and belief, it does not have any
organizational conflict of interest.” Furthermore, the clauses require that if the contractor
discovers an organizational conflict of interest with respect to the task order, it shall make an
immediate and full disclosure in writing to the CO.

In addition to the above, FAS required the contractor’s personnel assigned to work on the task
order to sign non-disclosure agreements. By signing the non-disclosure agreements, the



                                                 5
individual is indicating that, to the best of their knowledge, they do not have any conflicts of
interest that would impair their capacity to exercise independent judgment and provide impartial
advice when performing their assignment related to the Alliant Program and its acquisitions.
The disclosure also states that the person is agreeing to disclose any circumstances that may
create an actual or apparent conflict of interest by contacting the CO. The GSAM requires non-
disclosure agreements to be signed by non-government personnel that are serving as
evaluators. However, in this case, the contractor was responsible for obtaining but not
evaluating past performance information. Although not required, FAS took the additional
measure by requiring the contractor personnel to sign non-disclosure agreements.

Recommendations
We recommend that the Commissioner of the Federal Acquisition Service:

   1. Provide contracting officers with periodic refresher training on the requirements for
      acquisition planning, price analysis and award determination for orders placed under
      Multiple Award Schedules.
   2. Increase supervisory oversight during the award and administration of task orders to
      ensure the adherence to policies and procedures.
   3. Ensure that (a) contract administration duties are part of the designated COR or COTR’s
      regular job responsibilities; (b) all CORs and COTRs attend training related to their roles
      and responsibilities on a regular basis; (c) OMB guidelines on COTR training and
      certification are followed; and (d) COR and COTR delegations are properly documented.

Management Comments

The Acting Commissioner of the Federal Acquisition Service concurs with the report findings
and recommendations. The Office of Integrated Technology Services is in the process of
implementing these recommendations. See Appendix A for management’s response to the
draft report.

Internal Controls
This review was limited in scope to the award and administration of a single task order in
support of GSA’s past performance evaluation of proposals submitted in response to the Alliant
and Alliant Small Business solicitation. Thus, our evaluation of internal controls was limited to
GSA’s award and administration of the task order.

We wish to thank you and your staff for the courtesies extended to the auditors during this
review. Should you or your staff have any questions concerning this review, please contact me
at (816) 926-8610.




Signed Erin Priddy,
Audit Manager
Acquisitions Programs Audit office




                                                6
APPENDICES
         LIMITED REVIEW OF
ALLIANT AND ALLIANT SMALL BUSINESS
 REPORT NUMBER A080152/Q/A/P08008

       Management Response




               A-1
         LIMITED REVIEW OF
ALLIANT AND ALLIANT SMALL BUSINESS
 REPORT NUMBER A080152/Q/A/P08008

       Management Response




               A-2
                                   LIMITED REVIEW OF
                          ALLIANT AND ALLIANT SMALL BUSINESS
                           REPORT NUMBER A080152/Q/A/P08008

                                    REPORT DISTRIBUTION

                                                               Copies

Acting Commissioner, Federal Acquisition Service (Q)             3

Internal Control and Audit Division (BEI)                        1

Acting Assistant Inspector General for Auditing (JA, JAO)        2

Assistant Inspector General for Investigations (JI)              1




                                               B-1
